                                       ~x~~vkAL &
                                       COMMUNITY
                                       SERVICE-



                                             June 20,2003

The Honorable Hubert T. Bell
Inspector General
U. S. Nuclear Regulatory Commission
Mail Stop T5-D28
Washington, D.C. 20555

The Office of Inspector General, Corporation for National and Community Service, has reviewed the
system of quality control for the audit function of the U.S. Nuclear Regulatory Commission, Office
of the Inspector General (OIG) in effect for the year ended March 31, 2003. We conducted our
review in conformity with standards and guidelines established by the President's Council on
Integrity and Efficiency (PCIE). We tested compliance with the OIG's system of quality control to
the extent we considered appropriate. These tests included a review of the audits identified in the
enclosure.

In performing our review, we have given consideration to the policy statement on quality control and
external reviews, dated February 2002, and issued by the PCIE. That statement indicates that an
OIG's quality control policies and procedures should be appropriately comprehensive and suitably
designed to provide reasonable assurance that the objectives of quality control will be met. It also
recognizes that the nature, extent and formality of an OIG's system of quality control depends on
various factors such as the size of the OIG, the location of its offices, the nature of the work and its
organizational structure.

In our opinion, the system of quality control for the audit function of the U.S. Nuclear Regulatory
Commission, Office of the Inspector General, in effect for the year ended March 3 1,2003, has been
designed in accordance with the quality standards established by the PCIE and was being complied
with for the year then ended to provide the OIG with reasonable assurance of material compliance
with professional auditing standards in the conduct of its audits. Therefore, we are issuing an
unqualified opinion on your system of audit quality control.

                                                Sincerely,



                                            J. Russell George
                                            Inspector General


Enclosure

                         1201 New York Avenue, NW, Suite 830 + Washington, DC 20525
                            202-606-5000 * Hotline 800-452-8210 * www.cncsig.gov
                                                                                                 Freedom Corps
                             Senior Corps   * AmeriCorps * Learn and Serve Anlerica
Peer Review Scope and Methodology

Scope and Methodology

We tested compliance with the Office of the Inspector General's system of quality control to the
extent we considered appropriate. These tests included a review of 3 of 15 audit reports issued
during the September 30, 2002, and March 3 1, 2003, semiannual reporting periods for the period
April 1, 2002, through March 3 1,2003. In addition, we reviewed the financial statement audit and
monitoring activities covering the FY 2002 financial statements for the U.S. Nuclear Regulatory
Commission that were performed under contract by Navarro & Associates. We also reviewed the
internal quality control reviews performed by the U.S. Nuclear Regulatory Commission, Office of
the Lnspector General.

OIG Office Reviewed

We visited the U.S. Nuclear Regulatory Commission, Office of the Inspector General, located in
Rockville, Maryland.

Audit Reports Reviewed

Report Number         Report Date       Report Title

OIG-03-A- 11          312 112003        Use of E-Mail at NRC

OIG-03-A-07           2/26/2003         Management Audit of Region I1

OIG-02-A- 16          911812002         Memorandum Report: Review of NRC's Protection of
                                        Social Security Numbers




                                                                                     Enclosure 1
                                                                                     Page 1 of 1
